HHS/OIG-Audit--"Audit of the Mashantucket Pequot Tribal Nation's Use of Federal Discount Drug Programs, (A-01-99-01502)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Mashantucket Pequot Tribal Nation's Use of Federal Discount Drug Programs," (A-01-99-01502)
August 17, 2000
Complete
Text of Report is available in PDF format (2.15 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Mashantucket Pequot Tribal Nation (MPTN) extended eligibility for federally discounted
drugs to its nonIndian employees without making the required determination that reasonable alternative drug services were
not available to these employees. Many alternative sources were available. As a result, in Fiscal Years 1998 and 1999 MPTN
provided $5.8 million worth of discounted drugs to individuals not eligible to receive them. Also, MPTN did not follow
Federal guidelines requiring entities to identify their 340B drug purchases, and its contract relationships with 16 other
tribes do not met 340B guidelines. Recommendations call for actions the Indian Health Service and the Health Resources
and Services Administration need to take to help improve MPTN's administration of its 340B drug purchase program.